<html>
<title> - SECOND CHANCE ACT OF 2005 (PART II): AN EXAMINATION OF DRUG TREATMENT PROGRAMS NEEDED TO ENSURE SUCCESSFUL RE-ENTRY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 SECOND CHANCE ACT OF 2005 (PART II): AN EXAMINATION OF DRUG TREATMENT 
             PROGRAMS NEEDED TO ENSURE SUCCESSFUL RE-ENTRY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 1704

                               __________

                            FEBRUARY 8, 2006

                               __________

                           Serial No. 109-86

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
25-924 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel

                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            FEBRUARY 8, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Dr. Nora Volkow, Director, National Institute on Drug Abuse, 
  National Institutes of Health, U.S. Department of Health and 
  Human Services
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mr. Ken Batten, Director, Office of Substance Abuse Services, 
  Virginia Department of Mental Health, Mental Retardation & 
  Substance Abuse Services
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Ms. Pamela Rodriguez, Executive Vice President, Treatment 
  Alternatives for Safe Communities (TASC), Inc.
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Ms. Lorna Hogan, Associate Director of Sacred Authority, Parent 
  Advocate, The Rebecca Project for Human Rights, Washington, DC
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    35
Prepared Statement of Scott A. Sylak, Executive Director, Lucas 
  County TASC, Inc...............................................    36
Prepared Statement of William F. Nelson, Director of Correctional 
  Services, Volunteers of America................................    38
Addendum to the testimony of Pamela Rodriguez, Executive Vice 
  President, Treatment Alternatives for Safe Communities (TASC), 
  Inc............................................................    40
TASC Brief Overview: Studies on Effectiveness of Case Management, 
  submitted by Pamela Rodriguez, Executive Vice President, 
  Treatment Alternatives for Safe Communities (TASC), Inc........    42
TASC Brief Overview: Studies on Effectiveness of Treatment, 
  submitted by Pamela Rodriguez, Executive Vice President, 
  Treatment Alternatives for Safe Communities (TASC), Inc........    43
GLATTC Research Update: Coerced Drug Treatment for Offenders: 
  Does It Work?, submitted by Pamela Rodriguez, Executive Vice 
  President, Treatment Alternatives for Safe Communities (TASC), 
  Inc............................................................    46
Re-Entry Policy Council: Substance Abuse and Re-Entry Statistics, 
  submitted by the Council of State Governments..................    48

 
 SECOND CHANCE ACT OF 2005 (PART II): AN EXAMINATION OF DRUG TREATMENT 
             PROGRAMS NEEDED TO ENSURE SUCCESSFUL RE-ENTRY

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. I want to 
welcome each of you to an important hearing to examine the 
issue of drug treatment programs and prisoner re-entry.
    At the outset, I want to thank Mr. Bobby Scott, the Ranking 
Member, and his counsel Mr. Vassar, for their cooperation and 
support, as well as our counsel Mike, for this hearing and, 
Bobby, for your commitment to broaden H.R. 1704, the Second 
Chance Act to include drug treatment and other innovative 
programs. The Second Chance Act is a unique proposal which, if 
enacted, will reduce crime, promote community safety, and give 
offenders a true second chance in life.
    In my opinion, if an offender has paid his or her debt to 
society, it is incumbent on the Government to give these 
offenders a true second chance to become law-abiding and 
productive members of society. After all, in many cases we are 
talking about people who truly need a second chance, people who 
are in need of jobs, education, drug treatment, and other 
assistance so that they can help themselves maintain their 
families and better their communities.
    Today we are focusing on the issue of drug treatment for 
offenders. The statistics of the drug problem and offenders are 
staggering. Fifty-seven percent of Federal and 70 percent of 
State inmates have used drugs regularly prior to prison, with 
some estimates of offender involvement with drugs or alcohol 
around the time of offense as high as 84 percent. The Bureau of 
Justice Statistics Trends in State Parole, 1990-2000, 60 to 83 
percent of the Nation's correctional population have used drugs 
at some point in their lives. A Bureau of Justice Statistics 
analysis further indicates that only 33 percent of Federal and 
36 percent of State inmates have participated in residential 
inpatient treatment programs for alcohol and drug abuse 12 
months prior to their release.
    The problem must be addressed. Any offender re-entry 
strategy has to include comprehensive and innovative drug 
treatment programs. The President has stated his support for 
increasing drug treatment on numerous occasions. In 2002, 
President Bush explained we must aggressively promote drug 
treatment because a nation that is tough on drugs must also be 
compassionate to those addicted to drugs.
    Today there are 3.9 million drug users in America who need, 
but who do not receive, help. And we have to do something about 
that problem.
    As we examine innovative drug treatment programs, I want to 
emphasize to everyone what I believe should be the single and 
most important question: Is there evidence that such a program 
works? If so, I would like to look at the need for such a drug 
treatment program in a particular setting, how such a program 
fits into an overall comprehensive approach to re-entry, 
maintaining continuous care, and how high a priority should we 
place upon authorizing such a drug treatment program.
    I want to reiterate my commitment to working with my good 
friend Bobby Scott and the other colleagues who are involved in 
this matter, so that we can bring to the full Committee, 
hopefully, a comprehensive approach to the re-entry problem.
    I look forward to hearing from today's witnesses about new 
and innovative drug treatment programs. I am now pleased to 
yield to the Ranking Member, the distinguished gentleman from 
Virginia, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I want to welcome 
Greg Barnes, who is substituting for Bobby Vassar today. He is 
out with the ATF--somewhere out in never-never land.
    Mr. Coble. If the gentleman will yield. I think my counsel 
may have blown the whistle on Bobby earlier today.
    Mr. Scott. Well, anyway, I thank you for your dedication in 
developing an effective prisoner re-entry system in this 
country and for the bipartisan, open-minded approach you and 
your staff, particularly Mike, have taken in so doing. I would 
also like to thank you for holding this second hearing this 
Congress on prisoner re-entry issues and in particular for this 
hearing emphasizing the importance of drug treatment and 
assuring that released offenders remain crime-free and live 
productive lives.
    I fully expect that today we will hear what has been clear 
for some time, that drug treatment for returning offenders 
greatly reduces recidivism and saves more money than it costs 
in avoided law enforcement and incarceration expenditures. And 
while assisting returning offenders is a cost-effective reason 
to develop and expand effective prisoner re-entry programs, I 
know that you are aware, as I am, Mr. Chairman, that the most 
important reason for doing so is because it better assures that 
members of the public will not have to suffer as victims of 
crime due to recidivism.
    This year, close to 700,000 people will leave prisons in 
the United States. Most of them are ill-prepared to succeed in 
earning a living and leading a law-abiding life, and the 
resources available to assist them are very limited. The 
addition of a felony record and a prison stay certainly doesn't 
help them get a job. Prisoners are released with limited 
education, limited resources and job skills, disqualifications 
from many Federal benefits due to drug or other convictions, 
often no family or community support. So it is not surprising 
that as many as two-thirds of the released prisoners are re-
arrested for new crimes within 3 years of their release.
    Although the national crime rate has fallen significantly 
over the last decade, we are seeing a continuing and 
unprecedented increase in our prison and jail population. All 
of this focus on increasing sentences has led us to the point 
where we now have on a daily basis approximately two and a half 
million people locked up in our Nation's jails and prisons, a 
fivefold increase over the past 20 years. As a result of this 
focus on incarceration, the United States is now the world's 
leader in incarceration. The rate per 100,000 population is 
approximately 142 in England, 117 in Australia, 116 in Canada, 
91 in Germany, and 85 in France. We are by far the largest 
incarcerator, with a rate of 726 per 100,000 in 2004. The 
closest competitor is Russia, with 532.
    Despite all our tough sentences, over 95 percent of inmates 
will be released at some point. The question is whether they 
will re-enter society in a context that better prepares them 
and assists them to lead law-abiding lives or continue the 
cycle of two-thirds of them returning in 3 years. So if we are 
going to continue to send more and more people to prison with 
longer and longer sentences, we should at least do as much as 
we reasonably can to assure that when they do return, they 
won't go back to prison with new crimes.
    Mr. Chairman, I expect that we will see from the testimony 
today that we have the experience, the evidence, and experts to 
show that we can reduce recidivism through smart re-entry 
programming. What's needed are the resources to carry out that 
programming. The Second Chance Act, of which you and I are both 
cosponsors, is a bipartisan bill supported by a broad coalition 
of organizations and individuals, liberals and conservatives, 
who recognize the importance of moving forward on this issue. 
We also have the LERA bill, the Literacy, Education, and 
Rehabilitation Act, which is also designed to reduce 
recidivism.
    I believe that this hearing provides an important part of 
the foundation for our taking this next step toward passing a 
well-founded, effective re-entry bill, and I look forward to 
the testimony of the witnesses today to help us in this 
process.
    Mr. Chairman, we can protect the public by reducing the 
chance that prisoners will come back and commit new crimes by 
passing the legislation that we will be hearing about today.
    Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman from Virginia. And we have 
also been joined by the distinguished gentleman from Ohio. Mr. 
Chabot, good to have you with us today.
    For the benefit of the witnesses, it is the practice of the 
Subcommittee to swear in all witnesses appearing before it. So 
if you all would please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative.
    We have four distinguished witnesses with us today. Our 
first witness is Dr. Nora Volkow, director of the National 
Institute on Drug Abuse, NIDA. Dr. Volkow is the first woman to 
serve as NIDA's director since the founding of the institute. 
Prior to joining NIDA, Dr. Volkow held concurrent positions at 
the Brookhaven National Laboratory as Associate Director for 
Life Sciences and Director of Nuclear Medicine. She is a 
recognized expert on the brain's dopamine system and was the 
first to use imaging to investigate neurochemical changes that 
occur during drug addiction.
    Dr. Volkow received her B.A. from Modern American School, 
an M.D. from the National University of Mexico, and post-
doctoral training in psychiatry at New York University.
    I am going to ask Mr. Scott if he will introduce his fellow 
Virginian.
    Mr. Scott. Thank you, Mr. Chairman. Our second witness will 
be Kenneth Batten, who is the Director of the Office of 
Substance Abuse Services at the Virginia Department of Mental 
Health, Mental Retardation & Substance Abuse Services. He 
serves as the Single State Authority for Substance Abuse for 
the Commonwealth. He has extensive work experience with 
substance abuse populations.
    Previously, he worked as the Director of the Division of 
Substance Abuse Services and Chief Case Manager at the 
Commission of the Virginia Alcohol Safety Action Program. He is 
a member of the National Association of State Alcohol and Drug 
Abuse Directors and serves as chair of the Criminal Justice 
Committee, and is testifying in that capacity.
    He is a graduate of Morris Harvey College and the Virginia 
Commonwealth University.
    I am pleased to have a fellow Virginian here testifying 
with us today.
    Mr. Coble. Thank you, Mr. Scott, Mr. Batten, Doctor.
    Our third witness is Ms. Pamela Rodriguez, Executive 
Director at the Treatment Alternatives for Safe Communities, 
TASC. While at TASC, Ms. Rodriguez is responsible for TASC 
research, policy, and legislative activities and for the 
implementation of a broad array of programs, including 
corrections and re-entry strategies, mental and drug health 
courts, and testing and counseling. Additionally, Ms. Rodriguez 
has performed consultations and training on a State and 
national level with regard to systems development in 
corrections, criminal justice, child welfare, and treatment 
services.
    She received her undergraduate degree from Bemidji State 
University--where is that, Ms. Rodriguez?
    Ms. Rodriguez. Northern Minnesota.
    Mr. Coble. Northern Minnesota--an M.A. from the University 
of Chicago.
    Our final witness today is Ms. Lorna Hogan, Associate 
Director of Sacred Authority Program at the Rebecca Project for 
Human Rights. Mrs. Hogan is the mother of four children and 
celebrates 5 years clean of drugs. She attributes her recovery 
and the end of her drug-related criminal activities to a 
comprehensive family-based treatment program where she and her 
children were allowed to heal together. Ms. Hogan is a recent 
graduate of Montgomery College's Continuing Education Program, 
and is an active PTA mom.
    We look forward to hearing from you, Ms. Hogan, and your 
compelling story before our Subcommittee today.
    Now, folks, the only thing Mr. Scott and I are inflexible 
about is we try to abide by the 5-minute rule. If you all see 
the amber light appear on your panel, that is your warning that 
the ice on which you are skating is getting thin. You will have 
1 minute after that. Now, we're not going to--anybody if you 
are not done after 5 minutes, but when the red light appears, 
that is your signal that the 5 minutes have expired. We have 
read your written testimony, and I am sure that will be re-read 
subsequently.
    Dr. Volkow, if you will start us off.

 TESTIMONY OF DR. NORA VOLKOW, DIRECTOR, NATIONAL INSTITUTE ON 
 DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Volkow. Yes, good afternoon, Mr. Chairman and Members 
of the Subcommittee. It is a privilege to be here to discuss 
NIDA's research on the importance of drug abuse treatment in 
the criminal justice system.
    Research has consistently shown that drug abuse treatment 
in the criminal justice setting and upon re-entry to the 
community is cost-effective and markedly reduces recidivism 
into both drug abuse and incarceration. Considering that close 
to .5 million Americans are incarcerated and that more than 
half of these are regular drug users, we have a major 
opportunity for improving public health and public safety.
    Drug addiction is a disease of the brain that affects the 
circuits involved in processing punishment and reward and in 
exerting inhibitory control. As a result, the addicted person 
will seek drugs compulsively even when they consciously don't 
want to and despite the threat of severe punishment, such as 
incarceration and loss of child custody, and at the expense of 
natural reinforcers, such as family and friends.
    Addiction can be treated, and its treatment does not need 
to be voluntary to be effective. This is why instituting 
treatment in the criminal justice setting constitutes such an 
extraordinary public health opportunity.
    However, for treatment to be effective, it has to be 
comprehensive and address the various elements in the person's 
life that has been disrupted by drugs--family, employment, 
education, and health. Thus, successful outcomes can be 
achieved with criminal offenders who receive treatment in 
prisons, provided that a comprehensive aftercare component is 
included during the transition back into the community.
    For example, in one study, those who participated in 
prison-based treatment followed by aftercare were seven times 
more likely to be drug-free and two times more likely to be 
arrest-free after 3 years than those who received no treatment.
    Another unique opportunity is reaching young offenders, 
since an appropriate therapeutic intervention can shift their 
life trajectories from one of failure to one of success. Age 
matters when it comes to drug abuse, since exposure to drugs 
during adolescence or childhood may adversely affect brain 
development and increase the vulnerability to drugs. A 
therapeutic intervention at this stage of life, when the 
disease of addiction is still of recent onset, is more likely 
to be successful than during adulthood, when it's much more 
chronic.
    Though we have shown through science that treatment for 
drug addiction works, a big challenge is its implementation. 
For example, medications have been shown to help normalize 
brain function, such as is the case of methadone and 
buprenophrine when using the treatment for heroin addiction. 
Yet these medications are all but absent in the criminal 
justice system.
    The translation of science to practice in the criminal 
justice setting is complicated by the need to merge two very 
different cultures--the public health one that aims to treat, 
and the public safety that aims to protect the community. Thus, 
a priority for NIDA has been to develop research to help 
translate findings from treatment research into the criminal 
justice setting.
    One such example is the creation of our research networks, 
which we call the CJ-DATS, done in collaboration with the 
Department of Justice and SAMHSA, that includes researchers 
working with treatment providers as well as prisons in several 
locations throughout the United States. And this network allows 
us to evaluate treatment interventions for drug abuse in 
criminal offenders while in prison and upon community re-entry.
    Further, because African American males are over eight 
times more likely to be incarcerated than white males, research 
on the criminal justice consequences of drug abuse in the 
African American population is a priority for NIDA.
    Treatment of the drug offender during incarceration and re-
entry to the community directly benefits not only the addicted 
person, his or her family, but also the community. Returning a 
sober parent gives a child the confidence brought by the 
protection of the family. Providing medical treatment to the 
abuser can reduce transmission of infectious diseases such as 
HIV and hepatitis, which are twice as prevalent in this 
population. And of course, reducing crime benefits the whole 
community.
    Treatment of the drug-abusing offender is not only a 
necessity for the individual's recovery, but it is also an 
urgent public health issue. And because it's cost-effective, 
it's a win-win both for public health and for public safety.
    I will be happy to answer any questions you may have.
    [The prepared statement of Dr. Volkow follows:]
                  Prepared Statement of Nora D. Volkow
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Doctor.
    Mr. Batten.

 TESTIMONY OF KEN BATTEN, DIRECTOR, OFFICE OF SUBSTANCE ABUSE 
    SERVICES, VIRGINIA DEPARTMENT OF MENTAL HEALTH, MENTAL 
             RETARDATION & SUBSTANCE ABUSE SERVICES

    Mr. Batten. Chairman Coble, Ranking Member Scott, and 
Members of the Subcommittee, my name is Ken Batten and I serve 
as the Single State Authority for Substance Abuse, or SSA, for 
the Commonwealth of Virginia. Today I appear before you as a 
representative of the National Association of State Alcohol and 
Drug Abuse Directors, where I serve as chair of the Criminal 
Justice Committee.
    Thank you for holding this hearing today. I sincerely 
appreciate the focus this Subcommittee has placed on substance 
abuse treatment as a key part in offender re-entry programs. As 
the SSA in Virginia, I manage the publicly funded substance 
abuse system. I work closely with my counterparts in Virginia 
and the criminal justice system on treatment and other re-entry 
issues.
    As you know, re-entering offenders face many challenges. 
There is no doubt that a comprehensive approach is necessary to 
address the needs of those returning to our communities. 
Substance abuse treatment must take a prominent role when 
dealing with issues of re-entry. It is estimated that 70 to 80 
percent of the State prisoners have histories of substance 
abuse; however, as few as 10 percent are receiving formal 
substance abuse treatment while incarcerated. Their resources 
for treatment are limited. Research shows us that people can 
and do recover from addiction and that treatment works.
    Our experience with prison and jail-based substance use 
disorder programs in Virginia also demonstrate the efficacy of 
these programs in reducing recidivism. A survey of Virginia 
sheriffs, providers of substance abuse services, and jail 
services staff has indicated that the establishment of these 
counseling services by our agency had a significant impact on 
the behavior of individuals with substance abuse problems in 
Virginia's jails.
    For this hearing I would like to offer the five core 
recommendations as you consider action on offender re-entry.
    Recommendation 1: Coordinate with the Single State 
Authorities on re-entry strategies. As previously stated, a 
comprehensive approach must be taken when building a re-entry 
strategy. Creating a State-level coordinating committee of all 
necessary agencies and departments helps to identify 
overlapping services and populations and increase communication 
among agencies. It is imperative that State substance abuse 
directors are included in the planning, implementing, and 
evaluating of any re-entry strategy. The Single State 
Authorities have the front-line responsibility for managing our 
Nation's publicly funded substance abuse prevention and 
treatment system and creating statewide systems of care. Our 
own experience in Virginia has demonstrated that when these 
systems coordinate their efforts, less duplication of effort 
occurs, the overall product improves, and better services are 
delivered.
    Recommendation 2: Expand access to treatment. It has been 
shown that in order to capitalize on jail and prison substance 
use disorder programs, it is critical to engage offenders in 
continuing care upon release; the majority of offenders who 
seek aftercare services, however, will face a publicly funded 
system already at capacity. To accommodate the number of people 
in need, policies that ensure access to and resources for 
treatment services are necessary in order for State systems to 
be able to absorb additional admissions. One example is a 
strong commitment to the Substance Abuse Prevention and 
Treatment Block Grant, which directs funding to every State and 
territory. Other support comes from the Department of Justice 
through programs such as Drug Courts, the Byrne/Justice 
Assistance Grants, and the Residential Substance Abuse 
Treatment Program.
    Recommendation Number 3: Ensure clinically appropriate 
care. The research findings of the National Institute of Drug 
Abuse classifies substance abuse as a brain disease, 
recognizing that effective drug and alcohol treatment should 
contain both medical and behavioral therapy components in 
addition to a broad array of social support services. SSAs are 
responsible for developing and enforcing treatment standards 
based upon research and practical experience unique to their 
State's organizational structure and the individual's treatment 
needs. State licensure and certification laws help protect the 
consumer from receiving inappropriate or substandard care.
    Recommendation Number 4: Build accountability and outcomes 
data. Coordination with the State substance abuse agencies also 
improves accountability. Currently, many Federal grants to 
address substance abuse treatment do not require a link to the 
State agencies for purposes of reporting client-level data to a 
central repository. It is important for common standards, like 
those developed within the national outcome measures, be used 
when collecting data in order for findings and outcomes to be 
complete. Collecting accurate data and sharing information can 
help improve collaboration, document treatment effectiveness, 
and maintain a continuous quality improvement approach to 
managing public resources. It is also essential to use the data 
collected and conduct additional research on the impact 
addiction services have on offender re-entry. NASADAD strongly 
supports the work of the National Institute on Drug Abuse led 
by Dr. Volkow and encourages collaboration with the National 
Institute of Justice and Justice Statistics.
    Our final recommendation, Number 5: Support efforts like 
the Second Chance Act. NASADAD strongly supports the Second 
Chance Act. This legislation lays the foundation of the 
comprehensive approach I mentioned before that is necessary to 
address offender re-entry. As you examine further actions 
regarding re-entry, NASADAD hopes you move forward on this 
legislation and offers our support on this important issue.
    Once again, I would like to thank the Subcommittee for 
inviting me here today to testify on the State substance abuse 
programs and their role in offender re-entry. I appreciate the 
opportunity to share with you my experiences and would be happy 
to answer any questions.
    [The prepared statement of Mr. Batten follows:]

                    Prepared Statement of Ken Batten

                              introduction

    Chairman Coble, Ranking Member Scott, Members of the Subcommittee, 
my name is Ken Batten, and I serve as the Single State Authority for 
Substance Abuse (SSA) for the Commonwealth of Virginia. I am also a 
member of the National Association of State Alcohol and Drug Abuse 
Directors (NASADAD), where I serve as Chair of the Criminal Justice 
Committee.
    Thank you for holding this hearing today regarding offender reentry 
and substance abuse treatment and its impact on American families and 
communities. I sincerely appreciate the focus this Subcommittee has 
placed on substance abuse treatment as a key part in offender reentry 
programs. As you examine further actions regarding reentry, we offer 
our support and commitment and look forward to working with you and 
others on this important issue.

                          core recommendations

    There is no doubt that a comprehensive approach is necessary to 
address the needs of those leaving our jails and prisons and returning 
to our communities. Entities beyond corrections, including schools, 
child welfare representatives, businesses, and others must work 
together to address all the needs of reentering offenders.
    As the Single State Authority for Substance Abuse (SSA) in 
Virginia, I manage the publicly funded State substance abuse system. I 
work closely with my counterpart in the Virginia criminal justice 
system on treatment and other reentry issues. I appreciate the 
opportunity to share with you my experiences.
    For this hearing, I would like to offer the following core 
recommendations as you consider action on offender reentry:

        <bullet>  Coordinate with the Single State Authorities for 
        Substance Abuse (SSAs)

        <bullet>  Expand Access to Treatment Services

        <bullet>  Ensure Clinically Appropriate Care

        <bullet>  Promote Accountability and Outcomes Data

        <bullet>  Support Efforts Like the Second Chance Act

                     overview--scope of the problem

    Each year nearly 650,000 people are leaving State and federal 
prisons, many unprepared for their return to society. Reentering 
offenders face many challenges including substance abuse disorders and 
other health problems, poor education and job skills and a lack of 
affordable housing. As a result, nearly two-thirds of released 
prisoners will be rearrested within three years.
    The need for comprehensive reentry programs is clear. Successful 
programs, which include a strong addiction treatment component--
increase public safety, save money and improve the lives of the 
offenders and all in the community.
Substance Abuse is a Distinct, Prominent Problem
    It is estimated that 70 to 80 percent of State prisoners have 
histories of substance use, however, as few as 10 percent are receiving 
formal substance abuse treatment while incarcerated. Though resources 
for treatment are limited, research shows us that people can and do 
recover from addiction and treatment works.
Treatment Reduces Recidivism and Saves Money
    Inmates who participate in residential treatment programs while 
incarcerated have approximately 20 percent lower recidivism rates and 
35 percent lower drug relapse rates than their counterparts who receive 
no treatment in prison (G. Gaes et al, 1999). One study showed that 
those who completed an in-prison therapeutic community treatment 
program coupled with aftercare services were significantly less likely 
to be re-incarcerated: 25 percent of this population was re-
incarcerated compared to 64 percent of aftercare dropouts (K. Knight et 
al, Prison Journal, 1988).
    Our experience with prison and jail based substance use disorder 
programs in Virginia also demonstrates the efficacy of these programs 
in reducing recidivism. Further, a 1992 Virginia survey of Sheriffs, 
providers of substance use disorder services and jail services staff 
indicated that establishment of these counseling services by our agency 
had a significant impact on the behavior of individuals with substance 
abuse problems in the jails. Sheriffs reported a 21precent decrease in 
the number of jail assaults; a 51 percent decrease in the incidence of 
negative behavior in jails; an improvement of the jail environment; and 
a 21 percent decrease in the number of suicide attempts in jails.
    In addition, treatment saves money. According to the Council of 
State Governments' (CSG) Reentry Policy Report, for every $1 spent on 
treatment for offenders, there is up to a $7 crime-related cost 
savings. Similarly, a study in California found that in spending $209 
million on offender treatment, the taxpayers were saved $1.5 billion 18 
months later, with the largest savings in crime reduction (D. Gerstein 
et al, State of CA, 1994).
       recommendation: coordinate with ssas on reentry strategies
    As previously stated, a comprehensive approach must be taken when 
building a reentry strategy. Creating a State-level coordinating 
committee of all necessary agencies and departments helps to identify 
overlapping services and populations and increase communications among 
agencies. Given the high rate of substance use among offenders and the 
positive effect of treatment on reducing recidivism rates and saving 
taxpayer dollars, it is imperative that State substance abuse directors 
are involved in the planning, implementing, reporting and evaluating of 
any reentry strategy.
    State substance abuse directors have the frontline responsibility 
for managing our nation's publicly funded substance abuse prevention 
and treatment system. SSAs have a long history of providing effective 
and efficient services with the federal Substance Abuse Prevention and 
Treatment (SAPT) Block Grant housed in the Department of Health and 
Human Services, serving as the foundation of these efforts. SSAs 
provide leadership to improve the quality of care; improve client 
outcomes; increase accountability and nurture new and exciting 
innovations.
    SSAs implement and evaluate a State-wide comprehensive system of 
clinically appropriate care. They are responsible for setting clinical 
treatment standards for all addiction treatment services in the States. 
Every day, SSAs must work with a number of public and private 
stakeholders given the fact that addiction impacts everything from 
criminal justice, education, housing, employment and a number of other 
areas. Lack of coordination with State substance abuse agencies has 
been a consistent problem with discretionary grants--with the CSG 
Reentry Policy Report noting that ``. . . programs often turn to state 
agencies for resources when their federal grants expire without giving 
the state adequate time to plan for the support of such requests.''
    With a system already facing capacity concerns, should grant 
programs expire or demand exceed expectation, State substance abuse 
directors cannot prepare for such situations without direct 
involvement. As a result, initiatives regarding reentry should closely 
interact and coordinate with SSAs given their unique role in planning, 
implementing and evaluating State addiction systems. Our own experience 
in Virginia has demonstrated that when these systems coordinate their 
efforts less duplication of effort occurs, the overall product improves 
and better services are delivered.

               recommendation: expand access to treatment

    It has been shown that the most successful outcomes are found for 
those who received treatment while incarcerated followed up with 
aftercare services post release. Coordination with SSAs can help 
provide a seamless transition by ensuring clinically appropriate care 
while incarcerated and timely access to care once released.
    It must be recognized that the majority of offenders who seek 
aftercare services will enter the publicly-funded system already at 
capacity leading to waiting lists for services in many areas. In order 
to capitalize on jail and prison substance use disorder programs 
however, it is critical to engage offenders in continuing care upon 
release. Compounding this problem, the National Survey on Drug Use and 
Health (NSDUH) found that over 20 million Americans needed, but did not 
receive substance abuse treatment due, in part, to strains on capacity 
in the publicly funded system. Already, according to the Substance 
Abuse and Mental Health Services Administration (SAMHSA), the criminal 
justice system represents the principle source of referral for 36 
percent of all substance abuse treatment admissions. To accommodate the 
number of people in need, every effort must be made to expand 
prevention and treatment capacity.
    Policies that increase access to and resources for treatment 
services are necessary in order for State systems to be able to absorb 
additional admissions. One example is a strong commitment to the SAPT 
Block Grant--funding directed to every State and Territory that 
represents approximately 40 percent of prevention and treatment 
expenditures for SSAs. Other support comes out of Department of Justice 
(DOJ) through programs such as Drug Courts, Byrne/Justice Assistance 
Grants and the Residential Substance Abuse Treatment (RSAT) program.
Strengthen Prevention Services and Infrastructure
    It is also important to remember that infrastructure is needed to 
provide the capacity and resources for developing efficient and 
effective programs to prevent and reduce drug related crimes. SAMHSA's 
Center for Substance Abuse Prevention (CSAP) has been partnering with 
SSAs to develop this fundamental infrastructure in a number of States 
through the State Prevention Framework State Incentive Grant (SPFSIG). 
Other partners in the federal prevention portfolio include the 
Department of Education's Safe and Drug Free Schools and Communities 
(SDFSC) State Grants program and Enforcing Underage Drinking Laws 
(EUDL) housed in the Department of Justice (DOJ).
           recommendation: ensure clinically appropriate care
    The research findings of the National Institute of Drug Abuse 
(NIDA) classifies substance abuse as a brain disease. Research 
recognizes that effective drug and alcohol treatment should contain 
both medical and behavioral therapy components--in addition to a broad 
array of social support services.
    State substance abuse agencies are responsible for developing and 
enforcing treatment standards for providers. Each State has a unique 
set of provider standards based on research and practical experience 
unique to that State's organizational structure and treatment needs. 
State licensure and certification laws help protect consumers from 
receiving inappropriate or substandard care.
    Studies have shown that clinically appropriate services, including 
screening, assessment, referral, individualized treatment plans within 
the appropriate level of care and for the indicated duration of 
treatment, along with aftercare and other supports, provided by 
qualified staff help people enter into recovery.
Support the Development of Addiction Workforce
    A key challenge for many States in enhancing the quantity and 
quality of treatment services is recruiting, training, and retaining 
qualified treatment professionals. Effective addiction counseling is a 
skill that must be learned and developed. Salaries for counselors 
average about $30,000 per year, which is low for such skilled and 
emotionally challenging work.
    There is a shortage of trained counselors and that shortage is 
likely to grow. According to the Bureau of Labor Statistics (BLS), a 
total of 61,000 individuals were employed as substance abuse and 
behavioral disorders counselors in 2000; by 2010, the Department of 
Labor (DOL) projects there will be a need for an additional 21,000 
counselors, a 35 percent increase. A similar increase in demand is 
anticipated for licensed professionals who have received graduate-level 
educations.
    To reverse this trend, initiatives to increase related scholarships 
and offer student loan repayment must be considered on a State and 
federal level.
    In addition, SAMHSA has funded fourteen Addiction Technology 
Transfer Centers (ATTCs) that provide training to people working in the 
field across the nation. The ATTCs are currently involved in a major 
leadership development initiative. In Virginia, we rely heavily on the 
Mid-Atlantic ATTC to provide intensive training to prepare entry-level 
counselors for certification, and to organize our annual week long 
summer institute staffed by national experts and attended by over 700 
addiction professionals.
           recommendation: build accountability and outcomes
    Coordination with the State substance abuse agencies also improves 
accountability. Currently, many federal grants to address substance 
abuse treatment do not require a link to the State Agencies for the 
purpose of reporting client level data to a central repository. It is 
important for common standards and outcome measurements be used when 
collecting data in order for findings and outcomes to be accurate and 
complete. Collecting accurate data and sharing information can help 
improve collaboration and fine-tune services to better address 
populations.
Continue technical assistance and support for reporting the National 
        Outcomes Measures (NOMs)
    Over the past several years my staff in Virginia has collaborated 
with staff from SAMHSA and NASADAD to develop outcomes measures to 
document treatment effectiveness. This process culminated last year 
with the development of the National Outcomes Measures (NOMs). SAMHSA 
and the States are working to have all States report NOMs by the end of 
FY 2007. As we began this process, approximately one-third of the 
States could initially report NOMs, another one-third could do so with 
some resources and the remaining States requiring added resources and 
time. Virginia was recently awarded a contract to begin reporting NOMs 
under the State Outcomes Measurement and Management System (SOMMS).
    In addition to the NOMs, VaDMHMRSAS has been working to link our 
client data to data on arrests and employment history at the Virginia 
State Police and the Virginia Employment Commission. These processes, 
while maintaining compliance with federal regulations regarding client 
confidentiality, present exciting opportunities to document treatment 
effectiveness and maintain a continuous quality improvement approach to 
managing public resources. Documenting outcomes at the State level will 
continue to require significant resources to refine state data systems. 
To maintain recent progress in this area, support for SOMMS and for the 
Drug Abuse State Information Systems (DASIS) is critical.
Continue to Support Research
    It is essential to use the data collected and conduct additional 
research on the impact addiction services have on offender reentry. 
SSAs strongly urge the National Institute of Justice (NIJ) and the 
Bureau of Justice Statistics (BJS) to collaborate with the National 
Institute on Drug Abuse (NIDA), National Institute of Alcohol Abuse and 
Alcoholism (NIAAA), and States as they continue studies regarding 
prisoner reentry efforts. NASADAD applauds NIDA, lead by Dr. Nora 
Volkov, for working with SSAs and NASADAD to translate research into 
everyday practice.
       recommendation: support efforts like the second chance act
    NASADAD strongly supports the Second Chance Act. This legislation 
works to increase the availability of treatment and aftercare services 
by expanding current grant programs and encouraging collaboration among 
State and federal agencies--including SSAs. The Second Chance Act lays 
the foundation of the comprehensive approach I mentioned before that is 
necessary to address offender reentry. It will help establish State 
level committees to develop well coordinated reentry plans. It also 
pulls together federal agencies to organize initiatives at the national 
level as well as a national reentry resource center to disseminate 
technical assistance and best practices. This will greatly help States 
and communities share information and knowledge on what works.

                               conclusion

    Once again, I would like to thank the Subcommittee for inviting me 
here today to testify on State substance abuse systems and their role 
in offender reentry. I would be happy to answer any questions.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Mr. Batten.
    Ms. Rodriguez.

   TESTIMONY OF PAMELA RODRIGUEZ, EXECUTIVE VICE PRESIDENT, 
    TREATMENT ALTERNATIVES FOR SAFE COMMUNITIES (TASC), INC.

    Ms. Rodriguez. Good afternoon. I would like to thank 
Chairman Coble, Ranking Member Scott, and the Subcommittee for 
inviting me to testify today. I am the Executive Vice President 
of TASC, Treatment Alternatives for Safe Communities. TASC is a 
statewide not-for-profit organization in Illinois that provides 
access to recovery and other specialized services for 
individuals involved in the State's public systems, including 
criminal justice, corrections, juvenile justice, child welfare, 
and public aid.
    With a total correctional population in the United States 
at a record high 6.7 million, the problems associated with 
offender re-entry have not gone unnoticed. People on probation 
and parole face a host of seemingly insurmountable challenges 
in attempting to achieve stability and successfully reintegrate 
back into society. It is in the public's best interest to work 
toward addressing and removing these barriers. Doing so will 
reduce the costly cycle of crime and recidivism in which so 
many individuals and communities are entrenched.
    While the barriers to successful re-entry are daunting and 
numerous, there are programs and organizations that achieve 
positive outcomes in this area. By systemically using evidence-
based practices and programs to build on existing 
infrastructures, the extensive growing problems associated with 
criminal justice populations can be addressed. People's lives 
will be changed for the better--not only those who are 
incarcerated, their families and their communities, but also 
the American public that expects its taxes to be spent 
effectively and wants to live without the threat of crime.
    TASC programs across the country assist in the achievement 
of recovery, rehabilitation, and successful re-entry for 
thousands of people each year. While I'm here representing TASC 
in Illinois, I would be remiss to neglect mentioning other 
significant TASC programs that share our goal of improving 
outcomes for substance abusing offenders and reducing 
recidivism--like those in Ohio, North Carolina, Alabama, 
Arizona, Delaware, and New York.
    In Illinois, our statewide presence and impact on thousands 
of offenders each year exemplifies the real possibility of 
systemic change on a national level. We reach over 30,000 
people in our State annually, 4,000 of whom receive 
transitional clinical case management through our corrections 
programs. Another 10,000 probationers are served by TASC 
through alternative sentencing programs. TASC works with an 
array of service providers and community partners, including 
treatment recovery support, non-traditional providers, former 
offenders, and faith-based organizations throughout the State.
    Funded by Federal, State, and county governments, an 
important element of Illinois' offender management 
infrastructure is the incorporation of an independent case 
management entity. Research conducted by Thomas McClellan at 
the Treatment Research Institute in Philadelphia concluded that 
case management is an effective tool to use in increasing the 
appropriateness of and adherence to quality alcohol or drug 
treatment in public systems.
    As Illinois' designated agent to provide case management 
services to people needing substance abuse treatment or 
interventions, referred through the court or corrections, TASC 
utilizes a clinical approach to create a service delivery plan 
tailored to the unique needs of each individual and is also 
responsive to the need for offender accountability, public 
safety, and efficient use of public resources.
    And yet, demand for services far exceeds our capacity. The 
Second Chance Act addresses these issues. TASC is in full 
support of the Second Chance Act, which will address the 
current system of barriers to successful integration. This 
vital legislation will help restore citizenship, promote 
accountability and responsibility for self that is fundamental 
to recovery from addiction, encourage family strength and 
stability, and engage communities in the rehabilitation of 
their own citizens. For many years, TASC has had the honor of 
working with Illinois Congressman Danny Davis on these 
important issues.
    The Second Chance Act will provide critical support 
services that enable ex-offenders to successfully transition 
back into their communities and stay out of prison and jail by 
expanding substance abuse and mental health interventions and 
treatment, job assistance, and housing. It is our hope that 
this act will build on existing infrastructures, expanding on 
programs, services, and treatments proven to work. This 
legislation will promote public safety and save taxpayer 
dollars by breaking the costly cycle of recidivism that causes 
individuals, especially those with drug and alcohol issues, to 
repeatedly offend and serve time in our Nation's prisons and 
jails. Research shows that $7 in savings is recognized for 
every dollar invested in treatment. Additionally, research 
indicates that there's a 40 percent reduction in the costs of 
incarceration when offenders are served in community-based 
alternative sentencing programs.
    We know that the problems of alcohol and other drug abuse 
and mental illness are thoroughly intertwined with crime, 
incarceration, and recidivism. We also know that assessment, 
intensive clinical case management, intervention and treatment 
work to reduce drug and alcohol addiction and treat mental 
health conditions for those involved in the criminal justice 
system, routinely showing a 50 percent reduction in recidivism 
when treated. It makes sense to expand the provision of these 
vital services in prisons and jails and aftercare.
    With the Second Chance Act , we have the opportunity to 
create maximum impact by developing a thoughtful systemic 
response that expands substance abuse and mental health 
treatment, safe and supportive housing, education, employment 
training, family and community assistance. This legislation 
begins a process for ensuring better coordination and planning 
and builds on existing infrastructure, leveraging both 
resources and proven programs. Finally, with this legislation 
we can begin to remove the barriers that prevent a 
rehabilitated person from achieving full recovery and 
citizenship. Without a system response, today's solutions will 
be tomorrow's problems.
    Thank you, Chairman, and Members of the Subcommittee.
    [The prepared statement of Ms. Rodriguez follows:]

                 Prepared Statement of Pamela Rodriguez

                            tasc in illinois

    I would like to thank Chairman Coble, Ranking Member Scott and the 
Subcommittee for inviting me to testify today. I am the Executive Vice 
President of TASC (Treatment Alternatives for Safe Communities), which 
is a statewide not-for-profit organization that provides access to 
recovery and other specialized services for individuals involved in 
Illinois' criminal justice, corrections, juvenile justice, child 
welfare and public aid systems. TASC's programs reach over 30,000 
people across Illinois each year, including our Corrections 
Transitional Programs, which provide clinical case management to more 
than 4,000 adults annually who are reentering the community following 
incarceration. TASC works with an array of service providers and 
community partners, including treatment, recovery support, non-
traditional providers and faith-based organizations throughout the 
state.
    TASC is challenged every day with helping our clients overcome 
obstacles that prevent them from accessing the critical services and 
resources they need to become productive citizens following 
incarceration. Most of our clients are ill-equipped for lives of 
stability, health and self-sufficiency. Many have substance use or 
mental health issues that were in existence before their incarceration. 
Many need legitimate employment, stable housing and community support 
to have any hope of a crime-free lifestyle. For most of our clients, 
successful reintegration requires the careful and deliberate navigation 
of an array of programs, public systems, communities and the demands 
and expectations placed on returning offenders.
    To address the many barriers faced by our clients, TASC helps 
parolees complete their justice requirements and successfully 
reintegrate into their communities. Our programs work to develop 
collaborative, systems-level responses that balance the supervisory, 
health, welfare and justice needs of the ex-offender, his or her family 
and community. By acting as an independent entity, TASC utilizes a 
clinical case management approach to integrate all of these 
requirements into a service delivery plan tailored to the unique needs 
of each individual and is also responsive to the need for 
accountability, public safety and efficient use of public resources.
    A primary goal for TASC's case management model is ``restoring 
citizenship.'' This entails supporting and guiding former offenders as 
they learn positive ways of thinking, living and being. TASC transforms 
lives formerly characterized by involvement with drugs and the criminal 
justice system by working with individuals to learn the meaning and 
rewards of genuine self-care and respect for others. TASC clients 
develop the skills, attitudes and behaviors that are consistent with 
positive citizenship, including assuming responsibility for self-
direction and making positive contributions to their families, 
workplaces and communities. In the process of restoring citizenship, 
there is a healing of past harms and reassurance to victims, families 
and communities that change is possible. To accomplish these goals, 
TASC also works closely with community members and organizations to 
help them build their own capacity to support and reintegrate ex-
offenders.
                         the second chance act
    TASC is in full support of The Second Chance Act, which will 
address the current system of barriers to successful reintegration that 
are faced by men and women following incarceration. This vital 
legislation will help restore citizenship, promote the accountability 
and responsibility for self that is fundamental to recovery from 
addiction, encourage family strength and stability and engage 
communities in the rehabilitation of their own citizens. TASC has had 
the honor of working with Illinois Congressman Danny K. Davis on these 
important issues for many years. As a Co-sponsor of this bill, 
Congressman Davis continues to enhance his lengthy and impressive track 
record of exceptional dedication and leadership in the areas of reentry 
and public safety.
    The Second Chance Act will provide critical support services that 
enable ex-offenders to successfully transition back into their 
communities and stay out of prison and jail, such as substance abuse 
and mental health interventions and treatment, job assistance and 
housing. This legislation will promote public safety and save taxpayers 
dollars by breaking the costly cycle of recidivism that causes 
individuals, especially those with drug and alcohol issues, to 
repeatedly offend and serve time in our nation's and state's penal 
systems.
    We know that the problems of alcohol and other drug abuse and 
mental illness are thoroughly intertwined with crime, incarceration and 
recidivism. We also know that assessment, intensive clinical case 
management, intervention and treatment work to reduce drug and alcohol 
addiction and treat mental health conditions for those involved in the 
criminal justice system. Therefore, it makes sense to expand the 
provision of these vital services in prisons and jails and in aftercare 
programming if we want to prevent re-offense and re-incarceration. 
Assessment and case management are essential to bridge the system and 
community providers, ensuring that individuals are linked with 
appropriate treatment and meet the requirements of courts and parole. 
This legislation takes important steps toward expanding these services 
in our nation's prisons and jails.
    We also know that ex-offenders who cannot secure stable housing or 
steady employment, and whose families have suffered the strain of 
separation, have a much harder time staying out of prison and jail. 
This legislation will continue to fund state and local government 
programs that provide housing, education, job training and family 
initiatives, all of which contributes toward answering the immediate 
and pressing needs of returning individuals and their families.
    As stakeholders with a vested interest in public safety and the 
health and well-being of all of its citizens, community providers are 
in a unique position to affect the successful reentry of its 
incarcerated population as individuals return from prison and jail. The 
Second Chance Act engages community non-profits, including faith-based 
providers, in serving and empowering their own populations in 
successful reentry through programs such as President Bush's Mentoring 
Prisoners grant program, which provides funding for adult offender 
mentoring and reintegration transitional services. I would like to 
acknowledge President Bush's vision in the area of reentry and thank 
him for his leadership in bringing attention to this important issue.
    This legislation begins the process for ensuring better 
coordination and planning for release by providing necessary 
interventions and treatment for alcohol and drug addiction, treatment 
for mental health disorders, recovery support services, job training, 
education, housing services and family assistance in preparation for 
and upon release. TASC strongly urges Congress to support this 
legislation to improve the health, justice, welfare and safety of all 
of our residents and communities.
    Thank you, Chairman Coble and members of the Subcommittee, for 
hearing my testimony before you today. I would be happy to answer any 
questions you may have.

    Mr. Coble. Thank you, Ms. Rodriguez.
    Mrs. Hogan.

    TESTIMONY OF LORNA HOGAN, ASSOCIATE DIRECTOR OF SACRED 
   AUTHORITY, PARENT ADVOCATE, THE REBECCA PROJECT FOR HUMAN 
                     RIGHTS, WASHINGTON, DC

    Ms. Hogan. Good afternoon, Members of the Committee. It is 
a privilege to be here today.
    My name is Lorna Hogan and I'm the mother of four children. 
At the age of 14, I began abusing marijuana and alcohol as a 
way of coping with being physically, mentally, and verbally 
abused. I was afraid to tell anyone what was going on, and 
self-medicating was the only way I knew that could ease the 
pain. After awhile, the combination was not working. I needed 
something stronger to help me cope with the abuse. I began 
using crack cocaine. Crack cocaine would take me to horrible 
places I never imagined I would even go. The once-clean police 
record I had became stained with drug-related charges I 
committed to support my habit.
    My children were definitely affected by my drug use. I 
wasn't a mother to them. My grandmother was raising them, and 
when she became ill, I began leaving them with other people. I 
couldn't stop using. I tried 28-day treatment programs, but I 
was just detoxing. I was not getting help for the emotional 
pain I kept suppressed by using drugs. There were no services 
provided for me as a mother, there were no services for my 
children. There were no opportunities to heal as a family.
    In December of 2000, I was arrested on a drug-related 
charge and my children were placed with Child Protective 
Services. When I went before the judge for sentencing, I begged 
him for treatment. The judge refused my request. I felt 
hopeless. I not only lost my children, I lost myself. I didn't 
know where my children were or what was happening to them. I 
felt I would never see them again.
    In jail I received no treatment. I was surrounded by women 
like myself. We were all mothers. We were all there in jail 
suffering from untreated addiction. But there were no treatment 
services in jail for us. When I was released, there were no 
referrals to aftercare treatment programs. I was released to 
the street at 10 o'clock at night, with $4 in my pocket, and I 
still didn't know where my children were. I went back to doing 
the only thing I knew, which was using drugs. I felt myself 
sinking back into a life of self-degradation.
    Months later, by the grace of God, I finally found someone 
to listen to me, a child welfare worker who was assigned to my 
case. She referred me to an 18-month family treatment program. 
A family treatment program is where a mother can go with her 
children and the whole family as a unit can receive services. 
At family treatment, I addressed the underlying issues of why I 
used. I identified the many ways that I self-medicated my pain. 
I had a therapist to help me address the guilt and shame of 
being a mother who used drugs. I had a primary counselor I 
could talk to at any time.
    I also had parenting classes that gave me insight on being 
a mother. When my children were returned to me during 
treatment, my children received therapeutic services so that 
they, too, could heal from the pain of my addiction.
    Today I am a graduate of the family treatment program. I 
acknowledge 5 years clean time from drugs and alcohol. My case 
with Child Protective Services is closed. My children and I 
have been reunified for 4 years. We live in our own home in 
Montgomery County. My children are succeeding academically in 
school. I am a PTA mom. We are a whole and strong and loving 
family today.
    I would like to conclude my story by sharing with you how 
critical it is for mothers like me to receive access to family-
based treatment. When moms enter into family treatment 
programs, we have a 60 percent success rate. We stay clean. We 
don't re-enter the criminal justice system. And we stabilize 
our families.
    Most mothers behind bars are non-violent drug felons, and 
they are untreated addicts. They receive little or no 
opportunity to heal from their addiction. The absence of 
treatment services for mothers is apparent at every point in 
their involvement with the criminal justice system. Pretrial 
diversion, release services, court sentence alternatives, and 
re-entry programs for women offenders are restricted in number, 
size, and effectiveness. Mothers behind bars and mothers re-
entering the community need treatment. We need comprehensive 
family treatment to break the cycle of addiction in our 
families and to close the revolving door of the criminal 
justice system. We need comprehensive family treatment so that 
we can stabilize our families and raise our children with 
health and dignity.
    If moms behind bars are sentenced to family treatment 
programs, and if family treatment is made available to mothers 
returning to the community, so many families will have a real 
chance to heal and to stabilize. And like my family, they will 
have the chance to truly recover and not be lost to the 
criminal justice system.
    Thank you.
    [The prepared statement of Ms. Hogan follows:]
                   Prepared Statement of Lorna Hogan
    Good afternoon Members of the Committee, it is a privilege to be 
here today. My name is Lorna Hogan and I am the mother of four 
children. At the age of fourteen, I began abusing marijuana and alcohol 
as a way of coping with being physically, mentally, and verbally 
abused. I was afraid to tell anyone what was going on and self-
medicating was the only way I knew that could ease the pain. After 
awhile, this combination was not working. I needed something stronger 
to help me cope with the abuse. I began using crack cocaine.
    Crack cocaine would take me to horrible places I never imagined I 
would even go. The once clean police record I had became stained with 
drug related crimes I committed to support my habit. My children were 
definitely affected by my drug use. I wasn't a mother to them. My 
grandmother was raising them and when she became ill, I began leaving 
them with other people.
    I couldn't stop using. I tried 28 day treatment programs but I was 
just detoxing. I was not getting help for the emotional pain I kept 
suppressed by using drugs. There were no services provided for me as a 
mother. There were no services for my children. There were no 
opportunities to heal as a family.
    In December, 2000, I was arrested on a drug related charge and my 
children were placed with Child Protective Services. When I went before 
the judge for sentencing, I begged him for treatment. The judge refused 
my request. I felt hopeless. I not only lost my children, I lost 
myself. I didn't know where my children were or what was happening to 
them. I felt I would never see them again.
    In jail, I received no treatment. I was surrounded by women like 
myself--e were all mothers. We were all there, in jail, suffering from 
untreated addiction, but there were no treatment services in jail for 
us.
    When I was released there were no referrals to aftercare treatment 
programs. I was released to the street at ten o'clock at night with 
four dollars in my pocket. I still didn't know where my children were. 
I went back to doing the only thing I knew, which was using drugs. I 
felt myself sinking back into a life of self-degradation.
    Months later, by the grace of God, I finally found someone to 
listen to me: a child welfare worker who was assigned to my case. She 
referred me to an 18 month family treatment program. A family treatment 
program is where a mother can go with her children and the family as a 
whole unit receives help together. In family treatment, I addressed the 
underlying reasons for my addiction. I identified the many ways that I 
self-medicated to my pain. I had a therapist to help me address the 
guilt and shame of being a mother who used drugs. I had a primary 
counselor I could talk to at any time. I also had parenting classes 
that gave me insight into being a mother. When my children were 
returned to me during treatment, my children received therapeutic 
services so that they too could heal from the pain of my addiction.
    Today I am a graduate of the family treatment program. I 
acknowledge five years clean time from drugs and alcohol. My case with 
child protective services is closed. My children and I have been 
reunified for four years. We live in our own home in Montgomery County. 
My children are succeeding academically in school. I am a PTA mom. We 
are a whole and strong and loving family today.
    I would like to conclude my story by sharing with you how critical 
it is for mothers like me to receive access to family based treatment. 
When moms enter into family treatment programs we have a 60% success 
rate. We stay clean, we don't reenter the criminal justice system, and 
we stabilize our families.
    Most mothers behind bars are non-violent drug felons and they are 
untreated addicts. They receive little or no opportunity to heal from 
their addiction. The absence of treatment services for mothers is 
apparent at every point in their involvement with the criminal justice 
system. Pre-trial diversion, release services, court-sentenced 
alternatives and re-entry programs for women offenders are restricted 
in number, size, and effectiveness.
    Mothers behind bars and mothers reentering the community need 
treatment. We need comprehensive family treatment to break the cycle of 
addiction in our families and to close the revolving door of the 
criminal justice system. We need comprehensive family treatment so that 
we can stabilize our families and raise our children with health and 
dignity.
    If moms behind bars are sentenced to family treatment programs, and 
if family treatment is made available to mothers returning to the 
community, so many families will have a real chance to heal and to 
stabilize. Like my family, they will have the chance to truly recover 
and not be lost to the criminal justice system.
    Thank you

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Ms. Hogan, and thanks to all of you.
    Now, for the benefit of the witnesses, we impose the 5-
minute rule against us as well. So if you could keep your 
questions as terse as possible.
    Dr. Volkow, what are the implications for the criminal 
justice system based on NIDA's research showing that drug 
addiction disrupts the brain circuits in processing of reward 
and punishment factors.
    Dr. Volkow. The circuits involved in punishment and reward 
are circuits that are in our brain in order to motivate 
behaviors that are indispensable for survival, such as finding 
food, finding a partner, taking care of children. And drugs 
activate exactly the same circuits, but in much more efficient 
ways. When a person becomes addicted, those circuits basically 
signal to the brain the equivalent of a signal ``you need to do 
the drug in order to survive.'' So the person that is addicted 
in that process seeks the drug not out of pleasure, but out of 
need.
    Mr. Coble. And knowing, I guess, that punishment may be 
forthcoming.
    Dr. Volkow. Knowing that punishment may be forthcoming, but 
the value of punishment, when the signal is one of survival, 
becomes pale in comparison. So the person seeks the drug 
regardless of the catastrophic consequences. And that, I think, 
is a message extraordinarily important for the criminal justice 
system, because one of the things that is very frustrating in 
speaking with judges is how come we cannot affect the behavior 
by punishment? Well, the brain is not responding the same way 
that it would had that person not been affected by the drugs.
    Mr. Coble. I got you. Thank you.
    Ms. Hogan, for my information and the information of the 
Subcommittee, when you were confined and there was no treatment 
available, was that in a State-operated institution or county, 
or Federal?
    Ms. Hogan. It was a county.
    Mr. Coble. A county jail?
    Ms. Hogan. A county jail.
    Mr. Coble. And when you asked for treatment, you said the 
judge just turned a deaf ear to you?
    Ms. Hogan. He just basically told me he heard it before and 
the same people keep coming before him over and over again.
    Mr. Coble. Well, your story, Ms. Hogan, is an inspiration, 
I think, for all of us and reminds us of the real benefits that 
a comprehensive re-entry program can have, as each of you has 
explained.
    Now, answer this for me, Ms. Hogan.
    Ms. Hogan. Yes?
    Mr. Coble. How important do you see family-based therapies 
for drug addiction?
    Ms. Hogan. It's very important, because there are so many 
underlying issues of why a person used in the first place. And 
with comprehensive family treatment, not only is that parent 
getting the help, the children also need therapy.
    Mr. Coble. I guess it is what did it for you?
    Ms. Hogan. Yes, it did. Yes, it did.
    Mr. Coble. And you came out very well. I commend you for 
that.
    Ms. Hogan. Thank you.
    Mr. Coble. Mr. Batten, when authorizing new Federal drug 
treatment and re-entry programs, why is it so important to 
coordinate--Well, strike that.
    Is it important--I think it is--to coordinate with a Single 
State Authority for Substance Abuse? Do you concur with that?
    Mr. Batten. Yes, Mr. Chairman, I do concur with that. In 
Virginia we have over the years coordinated with our 
counterparts in the criminal justice system on a number of 
occasions. When we don't coordinate well, we end up duplicating 
each other's efforts, or actions that we should be taking get 
lost. When we coordinate, we sit down at the table, we discuss 
how to ensure that people receive continuing care upon release, 
how to begin developing services inside the prisons and the 
jails, and ensuring that continuing care takes place upon 
release. While we would like to do more, we are limited in 
terms of the resources that we have available.
    Mr. Coble. I see.
    I think I have time for one more question. Ms. Rodriguez, 
what role does TASC play in providing integrated services to an 
offender, A, and what types of services are included?
    Ms. Rodriguez. TASC serves an independent case management 
function advocating for the individual, bridging the criminal 
justice system with community treatment. And the community 
treatment involves substance abuse treatment, mental health 
treatment, housing, employment, all of the kinds of supportive 
services we're talking about in second chances.
    Mr. Coble. I thank you. And I see my light's about to come 
on.
    Mr. Scott from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Volkow, when you talk about comprehensive services, 
what are you talking about?
    Dr. Volkow. What I meant by that is that, first, you have 
to evaluate the unique needs of that substance abuser. Because 
if you don't, what's going to happen is exactly like it was 
described here: you are sending a prisoner that abuses 
substances out on the street with no resources. So you have to 
evaluate that the family structure is properly taken care of, 
that the individual is evaluated for the presence of mental 
disorders. Comorbidity in the substance abusers in the criminal 
justice system is more the rule than the exception. If you 
don't treat depression in a substance abuser, the likelihood of 
succeeding in keeping that person out of drugs and 
reincarceration is very, very low.
    You have to address issues of medical health. 
Unfortunately, the rate of infection of substance abusers and 
individuals that are in the criminal justice system is 
significantly higher than that of other individuals. As a 
result of that, it becomes urgent, it becomes a need to not 
only evaluate but to educate that person about proper 
behaviors.
    And finally, you need to provide a mechanism by which that 
person can succeed--if it's an adult, through their job; if 
it's a young person, through education; and if it's a mother, 
through providing them the skills to properly train their 
children.
    That's what I mean by ``comprehensive.'' You cannot just 
look at one aspect and forget the rest. You will fail.
    Mr. Scott. Is there any question that comprehensive 
services will actually reduce drug use?
    Dr. Volkow. There is consistently data showing that 
comprehensive services reduce the rate of substance abuse. And 
in fact, to me, one of the real success stories in the criminal 
justice system is the drug courts. It is very visionary. And 
the basis of the drug courts is that sense that you need to 
address the multiple aspects of an individual's life that have 
been disrupted by drug abuse. And the reason why they have been 
so successful in so many instances is that they have been able 
to do that very properly.
    So, yes, if you just aim and say, okay, you have a drug 
addiction but I won't care about your family, I won't care 
about your mental disease or that you don't have a job, I just 
care that you have a drug problem--you will not be able to keep 
that person off of drugs.
    Mr. Scott. But if you do the comprehensive services, you 
will reduce drug----
    Dr. Volkow. Significantly. And I just put that story. I 
mean, in medicine it's rare to have such a successful story. 
You are bringing the rate of drug use sevenfold lower. I mean, 
it's not half, it's sevenfold lower. Reincarceration to half.
    Mr. Scott. Now, Mr. Batten, you indicated that it's 
important to coordinate the services. Could you give us an 
example of different agencies involved in this coordination?
    Mr. Batten. Well, one of the examples that Dr. Volkow 
mentioned is critical; for example, drug courts. The reason 
drug courts are so effective is that they coordinate the 
efforts of the judiciary, probation and parole, the treatment 
agencies, and all other organizations that are involved with 
that particular individual. What they do is they engage the 
individual and keep them involved in this process over an 
extended period of time, which today continues to be the single 
biggest predictor of success.
    When we do that on a State level with respect to 
coordinating our efforts, as we have done in the past with an 
initiative in Virginia called SABER, we were able to bring 
together and sit at the table the State's Attorney General, the 
Department of Corrections, Department of Juvenile Justice, our 
own agency, the Department of Mental Health, Mental Retardation 
& Substance Abuse Services, and design a program that led to 
the screening and assessment of all individuals that presented 
with substance abuse issues, got them engaged in treatment and 
referred to appropriate services.
    So there are numerous examples where we have been able to 
do this. It has to do with ensuring that the proper people are 
at the table to sit down to plan the services and then to be 
able to implement those services.
    Mr. Scott. Now, I assume that it is important to have 
professional qualifications to provide these services. Is that 
right?
    Mr. Batten. There's a place for everybody at the table, Mr. 
Scott. It is important to have people with professional 
credentials at the table, but it's also appropriate to have 
people from the faith-based community at the table, individuals 
from the recovering community at the table. Everybody needs to 
be at the table in a coordinated way. The professional 
treatment services provide important services, but when we all 
work together, it works very well.
    Mr. Scott. Should you lower professional credentials to--is 
there anything good about reducing professional credentials in 
coordinating the services, or are professional credentials 
important?
    Mr. Batten. I think professional credentialed individuals 
are important for the level of care that needs to be provided 
to individuals who have complex needs. As Dr. Volkow had 
indicated, when you have an individual who has co-occurring 
problems, you have to have individuals who understand the 
interplay of the substance use disorder and the mental health 
disorder at the same time. And if you lower credentials for 
particular kinds of cases, you run the risk of not addressing 
the core issues with that particular individual.
    Mr. Scott. Is there any reason to backtrack on anti-
discrimination provisions in employment?
    Mr. Batten. I'm not sure----
    Mr. Scott. If we were to fund programs, is there any 
justification for allowing Federal grantees to discriminate in 
employment?
    Mr. Batten. I think, again, it would----
    Mr. Scott. Is the ability to discriminate based on race or 
religion an important initiative from the National Association 
of State Alcohol and Drug Abuse Directors?
    Mr. Batten. I don't think that--I'm not familiar with that 
position on the part of the National Association of State 
Alcohol and Drug Abuse Directors.
    Mr. Scott. They're not suggesting to us that we ought to 
allow Federal grantees to go around discriminating based on 
race or religion?
    Mr. Batten. Not to my knowledge.
    Mr. Scott. I just have one other question, if I could. And, 
Mr. Batten, you indicated in your written testimony $1 spent on 
treatment yields $7 on future savings. Can you or somebody else 
give us an idea of where we would save money if we actually 
reduce the use of drug abuse?
    Mr. Batten. Well, I'm sure others can chime in with that, 
but failures revolve through our systems over and over and over 
again when, if you just delayed the revolving door, to a 
certain extent you would save a significant amount of money, 
because a lot of the money associated with individuals in our 
system is the time that they spent in jail, the time that they 
spent in emergency rooms, the time they spent impacting all of 
our social services. If you can intervene with the individual 
and reduce recidivism and reduce that revolving door, then 
those are cases that don't consume those resources. That's part 
of where that $7 comes from.
    Another part of where that $7 comes from is that those 
individuals, in the course of their treatment, are going to be 
reentering society, they're going to be working, they're going 
to be paying child support, they're going to be doing a variety 
of things. So I think the $7 figure is conservative. But that's 
where our savings are, just simple intervention. If we could, 
for example, reduce the number of individuals going into our 
prisons in Virginia by 1,300 cases a year--and you've heard 
testimony here today about the number of inmates who have these 
problems--we could save the cost of a single prison. And the 
cost of a single prison, as you are aware, is astronomical. So 
the potential savings in this area are extraordinarily 
significant.
    Mr. Scott. Does anyone else want to comment?
    Dr. Volkow. I want to just make a comment because I think 
this is very important when we're dealing with issues of cost 
effectiveness. There's something that's very difficult to 
quantify--which is exactly exemplified by the witness, that 
notion of the disruption that it creates to a family to have 
one of the parents incarcerated. Not only incarcerated, but not 
even addressing the issue of substance abuse. The cost to those 
children, for example, in special education, the cost to them 
in terms of emotional suffering--how do you quantify that?
    And also, if you are a juvenile offender, the cost of that 
juvenile offender vis-a-vis not having the ability to educate 
themselves at that stage in life, where you're actually 
building up for the future is basically almost in many cases 
irreversible.
    So, I mean, it goes beyond putting a dollar amount into 
these things.
    Mr. Coble. Ms. Hogan, do you----
    Ms. Hogan. I just wanted to add that the cost to keep--if I 
had not gotten comprehensive family-based treatment, the cost 
for me to be incarcerated would be about $35,000 a year.
    Mr. Coble. Ms. Hogan, I was going to ask you, are your 
children with you today?
    Ms. Hogan. Oh, yes, they are.
    Mr. Coble. I'd like to----
    Ms. Hogan. Oh, not today. No, unfortunately they are home 
from school. [Laughter.]
    Mr. Coble. Well, folks, Mr. Scott and I and counsel 
appreciate what you all have done. Let me just conclude with 
this comment. And this is what frustrates me about--I have many 
frustrations about addiction, but one of the most prominent 
ones is the fact that it seems to know no respect for anyone. 
It cuts across racial lines--black, white, red, yellow; it cuts 
across social lines--impoverished, wealthy. I've known poor 
people who are unemployed who became addicted; conversely, I've 
known well-educated people, Mr. Scott, fully employed, 
independently wealthy: addicted. And that makes it an even more 
difficult target, I think, to nail.
    But I thank you all for your testimony. We very much 
appreciate your attendance today. In order to ensure a full 
record of adequate consideration of this important issue, the 
record will be left open for additional submissions for 7 days. 
So any written questions that a Member may want to submit to 
you all, or conversely, if you all want to submit additional 
information to us, please do so within the 7-day time frame.
    The concludes the legislative hearing on H.R. 1704, the 
``Second Chance Act of 2005'' (Part II): An Examination of Drug 
Treatment Programs Needed to Ensure Successful Re-entry.
    Thank you all again, not only for the witnesses, but for 
those in the audience, for your attendance as well. And the 
Subcommittee stands adjourned.
    [Whereupon, at 4:52 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you, Mr. Chairman. I want to thank you for your dedication to 
developing an effective prisoner reentry system in this country and for 
the bi-partisan, open-minded approach you and your staff have taken in 
doing so. I also want to thank you for holding this second hearing this 
Congress on prisoner reentry issues, and in particular for this hearing 
emphasizing the importance of drug treatment in assuring that released 
offenders remain crime free and live productive lives. I fully expect 
that we will hear today what has been clear for some time now--that 
drug treatment for returning offenders greatly reduces recidivism and 
saves more money than it costs in avoided law enforcement and 
incarceration expenditures.
    While assisting returning offenders is a cost-effective reason to 
develop and expand effective prisoner reentry programs, I know that you 
are as aware as I am, Mr. Chairman, that the most important reason for 
doing so is because it better assures that members of the public will 
not be victims of crime due to recidivism.
    This year, close to 700,000 people will leave prison in the U.S. 
Most of them are ill-prepared to succeed in earning a living and 
leading a law-abiding life, and the resources available to assist them 
re-enter successfully are very limited. The addition of a felony record 
and a prison stay certainly does not assist their job or social 
development prospects. So, with no or limited education, resources, job 
skills, federal benefits disqualifications due to drug or other 
convictions, and often no family or community support, not 
surprisingly, as many as two-thirds of released prisoners are 
rearrested for new crimes within 3 years of their release.
    Although the national crime rate has fallen significantly over the 
last decade, we are seeing a continuing and unprecedented increase in 
our prison and jail populations. All of this focus on increasing 
sentences has led us to the point that we now have, on a daily basis, 
over 2.2 million people locked up in our nation's prisons and jails, a 
5 fold increase over the past 20 years.
    As a result of this focus on incarceration, the U.S. is the world's 
leading incarcerator, by far, with an incarceration rate of 726 inmates 
per 100,000 population in 2004. The closest competitor is Russia with 
532 inmates per 100,000 population. The U.S. rate is almost 7 times 
that of the industrialized nations to which we are most similar--Canada 
and western Europe. The rate per 100,000 population is 142 in England/
Wales, 117 in Australia, 116 in Canada, 91 in Germany, and 85 in 
France.
    Despite all of our tough sentencing for crimes, over 95% of inmates 
will be released at some point. The question is whether they re-enter 
society in a context that better prepares them and assists them in 
leading law-abiding lives, or continue the cycle of \2/3\ returning in 
3 years? So, if we are going to continue to send more and more people 
to prison with longer and longer sentences, we should do as much as we 
reasonably can to assure that when they do return they don't go back to 
prison due to new crimes.
    Mr. Chairman, as I expect we will see from the testimony today, we 
have the experience, the evidence and the experts to show that we can 
reduce recidivism through smart reentry programming. What's needed are 
the authorizations and the resources to carry out the programming. The 
Second Chance Act, H.R. 1704, of which you and I both are cosponsors, 
is a bi-partisan bill supported by a broad-based coalition of 
organizations and individuals, liberal and conservative, who recognize 
the importance of our moving forward on this issue. I believe this 
hearing provides important part of the foundation for our taking the 
next step toward passing a well-founded, effective reentry bill. I look 
forward to the testimony of our witnesses today, Mr. Chairman, and to 
working with you to pass the Second Chance Act into law. Thank you.

                               __________

       Prepared Statement of Scott A. Sylak, Executive Director, 
                        Lucas County TASC, Inc.

                              introduction

    Chairman Coble, Ranking Member Scott, Members of the Subcommittee, 
I am Scott Sylak and I serve as the Executive Director of Lucas County 
TASC, Inc. in Toledo, Ohio. I am also the President of National TASC 
(Treatment Accountability for Safer Communities). National TASC is a 
nonprofit association representing individual and agency programs 
across the United States. National TASC and its members aim to improve 
the professional delivery of screening, assessment and case management 
services to justice-involved persons with substance abuse or behavioral 
health problems.
    Thank you for holding hearings regarding offender reentry and 
substance abuse treatment and the need to assure that offenders make a 
successful reentry when released from prison or jail. National TASC 
appreciates this focus on securing substance abuse treatment, 
especially because an estimated 80% of the state prison population 
report histories of substance abuse, 90% fail to obtain those services 
while incarcerated. It is estimated that only 10% of offenders receive 
appropriate community linkage and follow-up services upon release. We 
can do more to use proven and effective techniques that have been 
employed by TASC programs in many jurisdictions to reduce the number of 
unmanaged reentry cases in need of services and to improve the outlook 
for a substantial number of offenders who reenter society in need of 
substance abuse services.
    National TASC supports the Second Chance Act as critically 
important legislation that can address multiple challenges related to 
the return of incarcerated persons from prisons to their communities. A 
majority of those returning are young, lack a job, have two or more 
minor children and have a lower educational attainment and housing 
stability history than those who have never been incarcerated. More 
than two out of three returning from prison have a substance abuse or 
mental health history that will require treatment and support. Many 
also need medications to treat HIV and other communicable diseases. A 
growing number of released offenders do not have housing and become 
homeless after discharge from criminal justice custody. Without case 
management and appropriate services, this population will continue to 
drive up costs to our communities. Combining targeted clinical case 
management with services and resources that prevent new crime can solve 
many of these problems.
                    national tasc's recommendations
1. Develop a comprehensive approach that ensures coordination of funds 
        and services at the state level.
    In many states TASC programs already exist that can serve as a 
flexible approach to management and integration of offender services, 
the criminal justice system and other systems (justice, health, 
education, housing, employment, family services and community-based 
networks). TASC elements have been incorporated in many local pretrial, 
probation, parole, community corrections and substance abuse programs 
as well as drug courts, juvenile and family services interventions.
    TASC supports the Second Chance Act's design to encourage reentry 
partnerships among many federal, state and local agencies. TASC also 
knows that this process does not necessarily create the need for a 
large, costly bureaucracy. For substance abusing offenders, a central 
focus will be the development of capable professionals who serve 
released persons and their families as well as working with faith, 
community and mentoring programs. Bridging entities such as TASC build 
working partnerships between groups and organizations that serve 
individuals in the justice system. Examples of this can already be seen 
in the Breaking the Cycle Program in Birmingham, Alabama as well as 
throughout the state of Ohio.
2. Prevent recidivism by addressing known barriers to offender reentry 
        such as substance abuse.
    States can provide new ways to build effective services using the 
core components of cost-effective TASC programs as models. This will 
encourage development of stronger clinical reentry case management in 
communities already engaged in this effort. In many areas TASC programs 
provide communities with independent assessment, clinical case 
management and system integration techniques designed to intervene in 
the lives of offenders with addictions or behavioral health needs. 
TASC-style case management provides coordinated individual assessments, 
appropriate service delivery and resources targeted to follow offenders 
in need from prison to their home communities. This form of case 
management helps ensure that offenders who are released from jail and 
prison have the resources and supervision necessary to become 
productive members of their communities.
3. Encourage reentering persons to access appropriate opportunities for 
        post-incarceration services.
    This bill provides opportunities for states and localities to 
develop clinical responses across a variety of systems to provide 
incentives for more effective offender release procedures. It 
encourages application of the best practices from corrections and 
parole to substance abuse treatment and clinical case management. 
Experience with the TASC clinical case management model indicates that 
the complex systems of housing, employment, substance abuse, mental 
health and child welfare must be integrated into offender reentry 
management. The Second Chance Act allows each of these systems to serve 
their primary functions while building their services, furthering the 
goals of community safety, offender reentry and client rehabilitation. 
It also encourages these sectors to understand the need for offender 
accountability to the court and to the community while maintaining 
focus on the clinical needs of the individual.
4. Prioritize the use of scarce criminal justice resources to provide 
        drug treatment access to those most vulnerable to relapse.
    TASC programs operate within the parameters of the larger justice 
and treatment systems. For over thirty years TASC programs have served 
as a catalyst to develop more effective strategies for delivering 
services to persons involved in the justice system and their families. 
Although TASC programs have served to educate communities about their 
clients, local and state executive agencies are often responsible for 
funding, oversight and management of offender services, treatment and 
resources. Consequently there is a complex political and cultural 
climate in many communities that makes it difficult to achieve adequate 
client services for reentering offenders. By using independent case 
management, funded programs will help overcome inadequate or 
inconsistent services. This process can ensure that those who need 
treatment the most are the most likely to receive it.
5. Manage substance abuse, mental health, housing, medical, employment 
        and family needs.
    By providing for clinical reentry case management, reentry agency 
partners and TASC agencies can accomplish the following:

        <bullet>  Screen and assess for housing needs and develop a 
        short- and long-term plan for residential housing to make sure 
        that released offenders to not become homeless.

        <bullet>  Evaluate the complex problems and diagnoses related 
        to substance abuse and mental health disorders in individuals 
        and their families and refer clients to appropriate treatment, 
        ensuring that the system finds the problems before offenders 
        recidivate.

        <bullet>  Assess employment readiness, job placement needs and 
        refer to workforce development specialists or education 
        programs that are more tailored to individual strengths, 
        improving the likelihood of employment.

        <bullet>  Follow-up progress with case management that provides 
        incremental steps in the domains of housing, treatment, 
        employment and family stability.

        <bullet>  Monitor and report progress to ensure compliance with 
        expectations of the justice system. Routine reporting will 
        prompt sanctions if offenders fail to make progress.

        <bullet>  Advocate and provide linkages to the community to 
        further help offenders make the transition back into society.

6. Build elements into every funded program that measure accountability 
        data and improve outcomes.
    In order to absorb the impact of more than 600,000 reentering 
persons each year, communities must develop and coordinate effective 
transitional partnerships that assist individuals in meeting justice 
system requirements while successfully negotiating the necessary 
transition to communities, families and employment. This includes the 
following critical elements.

        <bullet>  A process to coordinate justice, treatment and other 
        systems.

        <bullet>  Procedures for providing information and cross 
        training to justice, treatment and other systems.

        <bullet>  A broad base of support from the justice system with 
        a formal structure for effective communication.

        <bullet>  A broad base of support from the treatment and other 
        social service communities.

        <bullet>  Assessment and case management independent from 
        justice and treatment.

        <bullet>  Policies and procedures for regular staff training.

        <bullet>  A management information system with a program 
        evaluation design.

        <bullet>  Clearly defined client eligibility criteria.

        <bullet>  Screening procedures for identification of candidates 
        within the justice system.

        <bullet>  Documented procedures for assessment and referral.

        <bullet>  Policies, procedures and protocols for monitoring 
        TASC clients' alcohol and drug use through chemical testing.

    The development of these systems between government and private and 
local agencies is one of the most difficult aspects of reentry 
management. Despite this challenge, there is evidence that a wider 
application of proven justice system innovations can result in more 
positive outcomes for this population.
                               conclusion
    On behalf of National TASC, I wish to thank the Subcommittee for 
holding a hearing on substance abuse systems and their role in offender 
reentry. Thank you for allowing my participation.

                               __________

   Prepared Statement of William F. Nelson, Director of Correctional 
                    Services, Volunteers of America

    Chairman Coble, Ranking Member Scott, and Members of the Committee, 
I want to commend you for focusing today's hearing on the importance of 
drug treatment to the successful and safe reentry of ex-offenders into 
our communities and neighborhoods. The Second Chance Act (HR 1704) will 
be an important tool that will help entire neighborhoods, in 
partnership with law enforcement agencies and social services delivery 
systems, to find community solution alternatives to criminal activity 
associated with drug dependency.
    My name is Bill Nelson and I am the Director of Correctional 
Services for Volunteers of America- Minnesota. For the past 32 years, I 
have served as the director of a federal pre-release center (halfway 
house), a privately operated jail for women serving Ramsey county (St. 
Paul), and a residential treatment center for women leaving the 
lifestyle of prostitution. I am pleased to share with the Subcommittee 
information about the Women's Recovery Center (``WRC''). The WRC offers 
participants chemical dependency treatment and sexual trauma therapy, 
assistance in restoring family ties and developing living skills and 
competencies to support them in leaving a life of prostitution. 
Operating for the past six years, the WRC has an 85% rate of success in 
achieving sobriety and leaving the lifestyle of prostitution. The 
uniqueness of this program and its treatment approach has attracted 
worldwide and national attention from a variety of levels of 
government.
    Many studies point to the fact that a very large percentage of 
offenders commit crimes while under the influence of alcohol or drugs. 
They are punished often through commitment to prison, fulfill the terms 
of their sentence, and are released without any significant attention 
paid to their chemical dependency. While it may be said that chemical 
dependency does not directly cause crime, there is a significantly high 
association between drugs and crime. Further, professionals in the 
criminal justice system observe that repetitive crime coincides with 
continued use of chemicals.
                     prostitution--a case in point
    Prostitution is both a complex and costly crime. Though offenders 
typically are charged at a misdemeanor level, the cost to society is 
enormous. In one benchmark study on criminal justice costs for 
prostitution, The Sentencing Project in Washington DC estimated that in 
Chicago, the total cost for each prostitution arrest was $1,554 in 
2001, for a system total of $9,089,252. While most prostitution 
activities are addressed on the local level, the related drug activity 
frequently serves as a feeder for prison commitments based on related 
crimes, including sales and distribution. Although some offenders go to 
prison, many do not and are absorbed in the local criminal justice 
network through repetitive jail time.
    Since 1984 Volunteers of America - Minnesota has managed a jail/
workhouse for women who are committed for periods of up to one year. 
This private institution serves Ramsey County (St. Paul). In 1998 the 
jail administration conducted an informal study of inmates who had been 
repetitively committed for engaging in prostitution. In every case they 
were committed for drug possession, sales, or related, and were 
themselves drug users. Based on the study it became obvious that drugs 
and prostitution were co-occurring phenomena. The number of commitments 
ranged from 4 to 14 among 12 inmates in the study. The cost 
implications were startling. Each inmate had cumulatively served 4-6 
years of jail time through repetitive commitments. At an average per 
diem jail cost of $55, this represented a cumulative cost of $80,000 - 
$120,000 per person with a likelihood of additional costs in the 
future. Each inmate admitted to being drug addicted.
                          a promising solution
    Following the study, Volunteers of America - Minnesota proposed a 
new approach, which emphasized specialized chemical dependency 
treatment and presented the idea to the 1999 session of the Minnesota 
legislature. Funding was approved for a pilot program identified as a 
prostitution recovery center and the program was launched in the year 
2000. The application of the ``treatment'' followed a blueprint of new 
thinking on gender specific chemical dependency treatment for women 
identified as the ``relational model''.
    The focus of the residential treatment center is chemical 
dependency treatment and currently serves 24 clients at a time. All 
clients have very substantial criminal justice background, are 
homeless, and most typically, drug addicted and have a long history 
with multiple incarcerations.
    The mission of the Center was established as follows:
    To provide therapeutic and life enhancing services that assist 
women in achieving improved physical, spiritual, mental health, 
sobriety, and independent living skills and a life without 
prostitution.
    In establishing this mission it is noteworthy that ``a life without 
prostitution'' was identified as an outcome and not a goal. Chemical 
dependency treatment along with the other elements of the program was 
the focus. Once these issues were to be addressed, it was hypothesized 
that the criminal justice side of the issue would be effectively 
addressed, as a consequence.
                                results
    In 2005 a follow-up study was conducted on 165 women who had been 
discharged from the program and back in the community for at least one 
year. Criminal justice data was obtained from the Minnesota Department 
of Public Safety, Bureau of Criminal Apprehension to determine whether 
the individuals had any further criminal justice involvement. Using 
this public information it was determined that 85% had no further 
criminal justice involvement.
                               conclusion
    Over the years crime has increased exponentially. Associated with 
this is the geometric rise in costs concomitant with all levels of 
criminal justice response. It has been said that we cannot ``build'' 
our way out of the problem by building additional prison space. Once 
this space is built and utilized it is likely that it becomes a 
permanent fixture in state and federal budgets. Fundamental crime 
prevention can be more effective by applying proven techniques such as 
chemical dependency treatment as part of an alternative to 
incarceration or as a post incarceration strategy to prevent further 
recidivism.
    Again, I commend the Subcommittee for its work today in shining a 
spotlight on the critical importance of drug treatment interventions in 
putting an end to the ``revolving door'' of incarceration. At 
Volunteers of America- Minnesota, we would like to be continuing 
resource to this Subcommittee in any way we can to further support for, 
and enactment, of the Second Chance Act.
     Addendum to the testimony of Pamela Rodriguez, Executive Vice 
  President, Treatment Alternatives for Safe Communities (TASC), Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   TASC Brief Overview: Studies on Effectiveness of Case Management, 
  submitted by Pamela Rodriguez, Executive Vice President, Treatment 
             Alternatives for Safe Communities (TASC), Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 TASC Brief Overview: Studies on Effectiveness of Treatment, submitted 
 by Pamela Rodriguez, Executive Vice President, Treatment Alternatives 
                   for Safe Communities (TASC), Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 GLATTC Research Update: Coerced Drug Treatment for Offenders: Does It 
    Work?, submitted by Pamela Rodriguez, Executive Vice President, 
        Treatment Alternatives for Safe Communities (TASC), Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Re-Entry Policy Council: Substance Abuse and Re-Entry Statistics, 
             submitted by the Council of State Governments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
